     DEFENSE MANUFACTURING TECHNOLOGY PROGRAM



Report Number 98-083                     February 25, 1998




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 6048937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector General,
DOD Home Page at: WWW.DODIG.OSD.MIL.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:
                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
by sending an electronic message to Hotline@DODIG.OSD.MIL; or by writing to the
Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of each
writer and caller is fully protected.




Acronym

CoE                   Center of Excellence
DLA                   Defense Logistic Agency
DDR&E                 Director of Defense Research & Engineering
GAO                   General Accounting Office
JDL                   Joint Director of Laboratories
MTIAC                 Manufacturing Technology Information Analysis Center
TARA                  Technical Area Review and Assessment
                                                                              February 25, 1998

MEMORANDUM FOR DIRECTOR DEFENSE RESEARCH AND ENGINEERING

SUBJECT: Audit Report on the Defense Manufacturing Technology Program
         (Report No.98-083)


        We are providing this audit report for review and comment. We performed the audit at
the request of the Chairman, House National Security Committee.

       DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
Director, Defense Research and Engineering did not comment on a drafi of this report.
Therefore, we request comments to the final report by April 27, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the audit should
be directed to Ms. Kimberley A. Caprio, Audit Program Director, at (703) 604-9139
(DSN 664-9 139), email <kcaprio@dodig.osd.mil> or Ms. Veronica McCain Acting Audit
Project Manager, at (703) 604-9338 (DSN 664-9338), email <vmccain@dodig.osd.mil>.           See
Appendix B for the report distribution. The audit team members are listed inside the back
cover.



                                             David K. Steensma
                                      Deputy Assistant Inspector General
                                                for Auditing
                           Office of the Inspector General, DOD
Report No. 98-083                                                        February 25,1998
  (Project No. 7CA-5025)
                  Defense Manufacturing Technology Program

                                  Executive Summary

Introduction. The audit was performed at the request of the Chairman, House National
Security Committee, as a follow up to a 1992 General Accounting Office report. DOD
established the Manufacturing and Technology Program in the late 1950s in response to a
growing need for advanced production processes. The program focuses on defense
essential needs that are beyond normal industry risk. The Manufacturing Technology
Program is structured around three major thrust areas: manufacturing and engineering
systems, process and fabrication, and advanced industrial practices.

The Director, Defense Research and Engineering,. provides oversight for the
Manufacturing Technology Program, and the Mthtary Departments and Defense Logistics
Agency are responsible for managing and executing projects that meet program goals. For
FY 1996, Manufacturing Technology Program funding was approximately $165 million
for 14 centers of excellence, three demonstration centers, and 97 projects.
Audit Objectives. The objective of the audit was to evaluate the adequacy of program
management and administration, and the effectiveness of the Defense Manufacturing
Technology Program. We also reviewed the management control program as it applies to
the audit objectives.

Audit Results. Overall, the ManTech program has realized some success in filling a need
for DOD purposes that did not exist in industry. However, program implementation can
be improved. Issues reported in the 1992 General Accounting Offrce report still exist.
Specifically, the Director, Defense Research and Engineering can improve guidance and
oversight. The Military Departments and Defense Logistics Agency can improve program
management, methods for tracking project results, and identifying project benefits. In
addition, the Manufacturing Technology program can improve accountability for levels of
cost sharing, technology transfer, dual use program and mechanism to ensure CoEs are
competed on a regular basis. Also the management control program could be improved
because we identified a material weakness applicable to the audit objectives (Appendix A).
Summary of Recommendations. We recommend that the Director, Defense Research
and Engineering, revise DOD Instruction 4200.15, “Manufacturing Technology Program,”
to clearly define selection criteria for manufacturing technology projects, outline roles and
responsibilities of parties executing projects, establish guidance and performance metrics
for reporting program results, include criteria for cost sharing and define in-kind
contributions, and establish a charter for the Joint Defense Manufacturing Technology
Panel. We also recommend the Director review Centers of Excellence and prepare a
justification showing why centers were not recompeted and develop a strategy to ensure
the need for recompeting is routinely addressed. In addition, transfer ongoing completed
project results to the Manufacturing Technology Information Analysis Center.

Management Comments. The Director, Defense Research and Engineering, did not
comment on a draft of this report. Therefore, we request the Director provide comments
by April 27, 1998.
Table of Contents

    Executive Summary                              i

    Part I - Audit Results
          Audit Background                         2
          Audit Objectives                         4
          Implementation of the ManTech Program    5

    Part II - Additional Information
          Appendix A. Audit Process               24
          Appendix B. Report Distribution         27
Part I - Audit Results
Audit Background

    Audit Justification. The audit was performed at the request of the Chairman,
    House National Security Committee, as a follow up to U.S. General Accounting
    Office (GAO) Report No. GAOMSIAD-92-74, “Defense Industrial Base: DOD’S
    Manufacturing Technology Program Needs Systematic Evaluation,” March 12,
    1992, (OSD Case No. 8923), (Appendix A). GAO reported that long standing
    problems with the Manufacturing Technology (ManTech) Program’s central
    management information system had gone uncorrected, the program lacked goals,
    and cost savings and financial benefits attributed to ManTech projects were not
    reliable. The report recommended that the Secretary of Defense revise ManTech
    guidance to demonstrate how the Military Departments program would be used to
    evaluate the entire ManTech Program, and establish a system of controls designed
    to provide more assurance that the ManTech Program was effectively
    implemented. The Secretary of Defense concurred with the recommendations to
    revise the guidance, and partially concurred with establishing a system of controls.
    According to the Secretary of Defense, control problems resulted, to a large
    extent, from congressional earmarking of funds for projects that had no benefit or
    cost effectiveness.
    Purpose of the ManTech Program. DOD established the ManTech Program in
    the late 1950s. The objective of the ManTech Program is to develop advanced
    manufacturing technology that would allow DOD weapon systems to be produced
    faster, better, and at a lower cost. The program focuses on defense essential needs
    that are beyond the normal risk of industry and pervasive across industry sectors
    throughout the weapon system life cycle. ManTech tinds are used to demonstrate
    the effectiveness and benefits of adapting commercial approaches to military needs.
    In addition, ManTech funds are used in projects for defense essential technology
    where market forces are not available to create mature manufacturing processes to
    support military product development and production.

    Management Responsibility for ManTech Program. The Director, Defense
    Research and Engineering (DDR&E), within the OtIice of the Secretary of
    Defense, has oversight responsibility for the ManTech Program. Within DDR&E,
    daily oversight responsibility is assigned to the Staff Specialist for Manufacturing
    (ManTech Program Manager). The Military Departments and Defense Logistics
    Agency @LA) are responsible for managing and executing projects that meet
    ManTech Program goals.

    Program Structure. The ManTech Program is executed in various types of
    organizations, including contractors, industrial consortia, universities, and Federal
    agencies. The ManTech Program is accomplished through individual projects
    initiated and directly managed by the Military Departments and the DLA, and by
    projects delegated to Centers of Excellence (CoE). Individual ManTech projects
    are generally awarded to private contractors or CoEs by a Military Departments or


                                          2
                                                                      Audit Results



the DLA in support of weapon system requirements. CoE are set up in consortium
type arrangements with industry, academia, and/or Government involved in
developing and implementing advanced manufacturing technologies. The CoE
also provide a focal point for developing and transferring new manufacturing
processes and equipment with industry, academia, and DOD organizations.
Program Funding. We focused on FY 1996 for purposes of this audit. ManTech
Program funding was approximately $165 million for 97 individual projects,
14 CoEs and three demonstration centers. ManTech funding has varied since 1990
and large portions have been congressionally directed. However, in recent fiscal
years directed funding has decreased. The following chart identifies ManTech
funding from FY 1989 to FY 1997 showing requested, appropriated, and directed
funds.

       350

       300




         0,             I1
              89   90    91   92   93       94   95   96   97
                                   FY




Figure 1. ManTech Program Funding

From 1992 to 1995, significant amounts (86 percent in FY 1994) of ManTech
funds were earmarked at congressional request. While DDR&E was limited in
deciding whether the project would be funded, DDR&E had the responsibility and
discretion to determine if the project was completed, if deliverables were realized,
milestones met, and if ManTech goals were achieved.




                                        3
Audit Results



Audit Objectives

      The objective was to evaluate the adequacy of program management and
      administration, and the effectiveness of the Defense Manufacturing Technology
      Program. We also reviewed the management control program as it applies to the
      audit objectives. The audit process, organizations and individuals visited or
      contacted, and prior audit coverage are found in Appendix A.




                                         4
            Implementation of the ManTech Program
           While the ManTech Program has realized some significant successes,
           program implementation can be improved. Specifically, the ManTech
           program can improve:


                    l   adequacy and timeliness of guidance,


                   l adequacy of oversight and program management by DDR&E, the

           Military Departments and DLA,
                        method used for tracking project results and identifying project
           benefits:
                    l   adequacy of accountability for cost sharing, and
                    l   effective use of competition.

           As a result, DOD and congressional officials cannot be assured that
           funded projects are appropriate for the ManTech Program, DOD funds
           are expended efficiently, and the program is effective or realizing its
           goals.



Background

    General Accounting Offke Report. In a 1992 report,’ GAO stated that
    DDR&E had not established guidelines that would enable it to measure and
    evaluate ManTech Program effectiveness. In addition, GAO reported that long
    standing problems with the ManTech Program’s central management information
    systems were still uncorrected, and cost savings or financial benefits being
    attributed to ManTech projects were not reliable. GAO recommended that the
    Secretary of Defense revise the system of controls designed to provide assurances
    that the ManTech Program is being effectively implemented. Such a system should
    include guidance to ensure that the Military Departments routinely and



    ’ Report No. GAO/NSIAD-92-74, “Defense Industrial Base: DOD’S Manufacturing Technology
    (ManTech) Program Needs Systematic Evaluation,” March 12, 1992, (OSD Case No. 8923).



                                            5
Implementation of ManTech Program



      uniformly report on the results of the projects measured against standardized
      criteria and their progress in meeting established program goals, priorities, and
      planned approaches.



ManTech Program Success

      Success Stories. The ManTech program has realized some significant successes in
      identifying and filling manufacturing needs for DOD purposes that did not exist in
      industry. These successes have resulted in the development of United States-based
      industries and helped to ensure the existence of needed manufacturing capabilities
      for DOD. Some success examples include the following projects.

               l The Center for Optics Manufacturing, an Army-funded CoE located in

      Rochester, New York, developed a means to automate the formerly labor-intensive
      optical grinding process. The OPTICAM@, a computerized machine, performs
      microgrinding and polishing for precision optics more accurately, efficiently and
      faster than the conventional labor intensive methods. According to the project
      manager, 17 companies (70 percent small business) are now using the machines to
      produce 95 percent of DoD optics with projected cost savings of about $10 million
      a year. Further development by the CoE reduced the cost of the OPTIC& from
      approximately $700,000 per unit to $250,000.
              l The Air Force Wright Laboratory initiated a project under contract to

      United Technologies Corporation to improve the aircraft paint stripping process.
      The Large Aircraft Robotics Paint Stripping program resulted in an automated
      low-cost, paint stripping system to replace the manual chemical stripping
      operations. The process reduced hazardous waste by 94 percent, eliminated
      135,000 gallons of chemical stripper annually and reduced production hours by
      50 percent. One Large Aircraft Robotic Paint Stripping system at the Oklahoma
      City Air Logistics Center saved $4.6 million annually. In addition, this program
      was a joint initiative with the Navy that demonstrated high-pressure water coating
      removal for ships and submarines.

              l The Navy initiated a project through the Laser Application Research

      CoE to develop a program that quantified the capabilities of laser beam welded
      panels. The program was designed to decrease the life-cycle cost by
      approximately $300 million for repairing Navy hatch covers, jet blast deflectors,
      decks, ramps, elevator platforms, and hanger doors over a 6-to 8-year period. The
      project demonstrated the welding of lightweight structures through the use of laser
      technology on the U.S.S. Mt. Whitney. The laser design was documented as
      providing a weight savings of over 20,000 pounds on one ship compared to the



                                            6
                                          Implementation of the ManTech Program



    conventional stiffened-plate design. The laser core platforms have performed as
    expected in the marine environment, without experiencing corrosion problems or
    requiring extensive maintenance.



Improvements Still Needed

    Despite these, and other success stories, improvements are still needed in guidance
    and oversight of the ManTech Program. Issues reported by GAO in 1992 still
    exist. Specifically:

           l   DDR&E needs to provide additional guidance and oversight.

          l DDR&E, the Military Departments, and DLA can improve program

    management.

            l DDR&E continues to lack an adequate methodology to track ManTech

    project results and identify program benefits.

           l  DDR&E, the Military Departments and DLA can improve accountability
    over cost sharing.

           l  The Military Departments and DLA need to continuously reevaluate the
    need for CoEs and improve the use of competitive procedures in awarding CoEs.

    In addition, DDR&E, the Military Departments, and DLA can improve the sharing
    of technology developed within the ManTech program with the commercial sector
    via technology transfer.



ManTech Program Guidance and Oversight

    DDR&E believes it has guidelines and delegations of authority in place that are
    adequate to provide management and oversight of the ManTech Program
    addressing the 1992 GAO concerns. These efforts include:

           a DOD instruction that is supplemented by DDR&E policy
           l

    memorandums,



                                         7
Implementation of ManTech Program



             l   an annual Defense Technology Area Plan,

             l establishment of a Joint Director of Laboratories Manufacturing Science

      and Technology Panel (JDL) and subpanels, and

             l   annual Technical Area Review and Assessment (TARA).

      DDR&E relies largely on these initiatives to provide overall ManTech Program
      guidance and oversight. The Military Departments and DLA are to provide
      detailed program guidance on daily direct program management and oversight
      because DDR&E has a one-person staff to oversee the ManTech Program.
      However, despite these initiatives, the ManTech Program indicates that DDR&E,
      the Military Departments, and DLA can improve the quality and extent of guidance
      and oversight.

      DOD Instruction. DOD Instruction 4200.15, “Manufacturing Technology
      Program,” May 1985, provides the basic guidelines for the ManTech Program
      management and reporting. Specifically, the instruction establishes the procedures
      for submitting project information into a centralized database system and
      submitting annual reports to DDR&E.
      Defense Technology Area Plan (the Plan). The DDR&E ManTech Program
      Manager stated that DDR&E provides the Military Departments and DLA overall
      ManTech program direction within the Plan. The annual plan started in FY 1996.
      The Plan identifies the overall DDR&E vision for the year including broad goals
      and objectives for various DDR&E programs, including ManTech. For example,
      FY 2000 goals for ManTech projects include improving affordability, flexibility,
      and reducing development cycle time for military products. Specifically, ManTech
      projects need to focus on tools and methods that can bring 50 percent reductions
      in design and development costs and cycle time in a military product environment.
      The goals identified in the Plan are accomplished through projects executed by the
      Military Departments and DLA.

      Joint Director of Laboratories Manufacturing Science and Technology Panel
      (JDL). In 1993, DDR&E established the JDL to assist with program oversight.
      The JDL included representatives such as DDR&E Program Manager, Military
      Departments Program Managers, industry experts (independent of ManTech
      projects), and DOD Component representatives (i.e., DLA and Defense Advanced
      Research Project Agency). The JDL established subpanels that focused on five
      major areas including metals, composites, electronics, advanced industrial
      practices, and manufacturing and engineering systems. The JDL subpanels were
      comprised of technical experts from the Military Departments, DOD Components,
      and industry experts.
                                             Implementation of the ManTech Program



        l The entire JDL meets quarterly to plan and develop strategies and
direction to execute the ManTech Program. Specifically, they receive an overview
of ManTech projects from each JDL subpanel chairperson and provide comments
to the chairperson on program strategy and direction. In addition, the JDL assists
with leveraging funds and technology transfer.

        l The JDL subpanels meets five or six times per year. Specifically, project

managers brief the subpanels on existing ManTech projects. Projects are evaluated
for affordability, dual use, sustainment, jointness, DOD requirements, beyond
normal industry risk, implementation plan, and benefits/payoffs. Subpanels provide
feedback to the project managers on adequacy of project management and possible
duplication. In addition, the subpanels use this information to brief the JDL. The
following figure identities the relationship of the JDL, subpanels and DOD
components prior to September 1996.
                           ,                                   ,
                           1   Joint Director of Laboratories 1




Subpanel for    Subpane- for        Subpanel for       Subpanel for   Subpanel for
Manufacturing   Metals              Composites         Electronics    Advanced
& Engineering   Processing &        Processing &       Processing &   Industrial
Systems         Fabrication         Fabrication        Fabrication    Practices




                           1 Military Departments and DLA 1

Figure 2. JDL Oversight Structure
In September 1996, the Chairman of the JDL, the Director of DoD Science and
Technology, and the Chief of Naval Research decided to dissolve the JDL, stating
that the JDL and subpanels had evolved into the Defense Science and Technology
Reliance planning process. However, according to the DDR&E ManTech
Program Manager, to reflect congressional guidance, the JDL continued
l?mctioning and was renamed the Joint Defense Manufacturing Technology Panel.
In January 1997, DDR&E began the process of developing a charter for the Joint
Defense Manufacturing Technology Panel.

        Technical Area Review and Assessment. In 1995, DDR&E initiated the
annual TAIU. The TARA was conducted by a panel of DDR&E and industry
representatives who reviewed a sample of existing ManTech projects presented by
the Military Departments and DLA. A portfolio of ManTech projects are
reviewed for completeness, balance, relevance, transition plan and unnecessary


                                         9
Implementation of ManTech Program



      duplication with other DOD programs. The TARA provides DDR&E the
      opportunity to determine the status of recommendations resulting from the
      previous TARA cycle, the status of issues identified by the Defense Science and
      Technology Advisory Croup, and to provide information needed to defend the
      budget to Congress.

      Extent of Military Departments and DLA Guidance and Oversight. DDR&E
      relies extensively on the Military Departments and DLA to perform daily program
      management and oversight of the ManTech Program. They identify, prioritize, and
      fund projects that meet ManTech Program goals and objectives. A review of
      program execution by the Military Departments and DLA indicated that, overall,
      each organization had a project review process in place, however, the processes
      were inconsistent.

              Army ManTech Program. For FY 1996, the Army ManTech Program
      received approximately $23 million to fund two CoE and 33 individual projects
      (non-CoE). The Army generally f?.mds smaller projects that are focused on
      resolving specific problems rather than broad based technological needs. For the
      period of our review, the Army identified and selected ManTech projects by the
      major commands submitting proposals to the Army ManTech Program Manager,
      who along with commodity area managers, selects which projects will be funded.
      The Army instruction AR-700-90, “Army Industrial Base Program” April 1, 1992,
      provides service level implementation guidance for the ManTech Program. For
      FY 1998, the Army has revised the process for selecting and prioritizing projects
      and will focus funding more projects with broad based technology efforts.

              Navy ManTech Program. The Navy received approximately $86 million
      in FY 1996 for the ManTech Program to fund 11 CoE and 28 individual projects.
      The Navy accomplishes the majority of its ManTech efforts through the CoE as
      compared to the Army and Air Force which emphasize individual projects rather
      than CoE. The Navy generally funds projects that are focused on specific Navy
      problems versus broad based technology. The Navy identifies ManTech projects
      by having the system commands and industry identify requirements and submit
      them to an Executive Steering Committee. The Executive Steering Committee
      and the Navy Project Manager prioritize and select which projects will be funded.
      The Navy Manufacturing Technology Requirement Document outlines the process
      for determining and assessing Navy ManTech requirements. The Navy has a small
      staff available for program management.

             Air Force ManTech Program. The Air Force received approximately
      $53 million in FY 1996 to fUnd 36 individual projects. The Air Force has a
      Manufacturing and Technology Directorate that includes full-time staff responsible
      for managing the program. In addition, the planning process for the program is
      documented in the Air Force Manufacturing Science and Technology Program
      handbook. Air Force projects address areas in avionics, spacecraft, airframe,
      engines and sustainment as well as broad based technology development. The Air


                                          10
                                         Implementation of the ManTech Program



Force identifies and selects projects for the ManTech program by having a
requirements team assess customer needs and a planning team propose projects to
address those needs. The proposals are forwarded and approved by the
Manufacturing Technology Executive Croup.

        DLA ManTech Program. DLA received approximately $4 million to
support three demonstration centers and various metalcasting projects . A
demonstration center is similar to a CoE in that it is structured in a consortium
type arrangement with industry and university developing and implementing
advanced manufacturing technologies. DLA has a small management staff that
provides limited reviews of projects being implemented at the demonstration
centers. For the apparel research network demonstration center, DLA relies
mainly on industry for project proposals. DLA reviews projects proposals and
decides which projects will be funded. We did not review the project planning
process for the remaining demonstration centers.

Need for Improved Oversight and Guidance. While DDR&E, the Military
Departments, and DLA have initiatives in place to provide oversight and guidance
to the ManTech Program, the guidance is not adequate or consistent, the lines of
responsibility are not clear, criteria for identifying and evaluating project results are
not clear, and support for program accomplishments is not readily available.
        Guidance. As stated previously, the primary guidance for ManTech
program managers is the DOD instruction and the Plan. The DOD instruction,
however, has not been revised since 1985 and the procedures are no longer valid.
For example, the centralized database system no longer exists and the annual
reports are no longer used to assess program management. In addition, the
guidance lacks criteria for evaluating proposed ManTech investments to ensure
they are defense essential and beyond the normal risk of industry, that projects are
transferred to industry, or that the projects meet the congressional goals of
competition or cost sharing. The Plan provides only broad goals and objectives for
the ManTech Program and other DDR&E programs.

To ensure that ManTech funds are used for projects consistent with ManTech
objectives, DDR&E needs to establish guidance that:

                l defines criteria for selecting ManTech projects, including what
constitutes an “essential DOD manufacturing capability,”

               l outlines the process for evaluating project effectiveness and steps

to perform the evaluations,

               l establishes guidelines and performance metrics for reporting

program results, and identifies the type of documentation needed to support that
the technology has been transferred to industry,


                                       11
Implementation of ManTech Program



                     l includes criteria for cost sharing and validation efforts to be

      taken to determine whether those goals have been met,

                     l   outlines criteria for competition, and

                    l clearly defines the roles and responsibility of Military

      Departments and DLA ManTech Program Managers.
              Oversight. DDR&E has various ways to provide oversight to the
      ManTech program including the TARA and the military ManTech Program
      Managers. The TARA reviews ongoing projects by both the Military Departments
      and DLA. However, the TARA meets once annually and reviews only a sample of
      ManTech projects. DDR&E needs to provide better oversight guidance, and
      clearly define the responsibilities of the Military Departments and DLA Program
      Managers. These steps are necessary to make the best use of increasingly limited
      staff for oversight purposes. DDR&E should place controls over the program,
      particularly funding, to ensure that those that do not comply are not provided
      funding until remedial actions are taken.
      Impact of Limited Guidance and Oversight. As a result of the limited guidance
      and oversight, the Military Departments and DLA interpreted ManTech program
      goals differently, and funded projects that did not meet ManTech program goals,
      or that did not comply with TARA recommendations. In addition, there is no
      standardized criteria to evaluate ManTech projects, and that there is no way to
      determine whether projects were effective. It should be noted that projects funded
      directly by the Military Departments appeared to more closely meet ManTech
      goals, to address defense-essential manufacturing needs beyond the normal risk of
      industry. Projects identified as questionable were generally performed by the
      CoEs.
             Projects Not Meeting ManTech Goals. The following are examples of
      projects that do not meet ManTech program goals because they do not constitute
      a defense-essential manufacturing need and did not benefit the ManTech
      program. DDR&E needs standard evaluation criteria to ensure that proposed
      ManTech projects are consistently evaluated for compliance with program goals
      and objectives.
              l In FY 1996, the Navy provided approximately $3 million to the Best

     Manufacturing Practices CoE, College Park, Maryland, to publish organization
     surveys of manufacturing practices based on information volunteered by each
     organization. Surveys of hotels and public school systems were included.
     Since hotels and schools are not traditionally considered to be manufacturing
     facilities, we question the applicability of these projects to improving
     defense-essential manufacturing capabilities beyond the normal risk of industry.


                                             12
                                      Implementation of the ManTech Program



When we discussed our concerns with the Navy, they were unable to show
adequate support on how such surveys were essential to the ManTech program
or DOD.

        l DLA paid Georgia Technology Research Corporation approximately

$162,000 to develop an information management system for ordering, tracking,
and shipping in a quick response environment. While such a system may
improve the contractor’s capability to respond to DOD procurement orders, we
question whether this project should be ManTech funded because the project did
not meet a defense essential need, and is not outside the scope of commercial
practices to improve efficiency or too great a risk for industry.
        l The Navy contributed approximately $152,000 toward a study

conducted at the Gulf Cost Regional Maritime Technology Center, New
Orleans, Louisiana on “Motion Sickness and Anti-Motion Sickness. ” The study
focused on the relationship between motion sickness and personality. Although
the study was not a ManTech initiative, the funds contributed for the project
could have been put to better use.

       l DLA initiated a project at Clemson University Apparel Research

Network to manufacture dress blouses for women. While the particular blouse
design is not standard, we question whether ManTech funds should be used to
manufacture blouses.
We also identified CoEs that appeared to have similar functions that could possibly
be merged.
        l Both the Army and Navy fund CoEs that address gear manufacturing. In

FY 1996, the Navy paid approximately $2.1 million to the National Center for
Advanced Drivetrain Technologies CoE to develop innovative and affordable gear
and transmission technologies for military and defense-industry applications.
Concurrently, in FY 1996 Congress earmarked $4 million to the Instrumented
Factory for Gears CoE to develop and demonstrate improvements for all
manufacturing processes involved in gear production. According to the Army and
Navy, the goals of the two centers differ. The Navy center emphasizes research
and development of new manufacturing technologies while the Army center
focuses on improving existing manufacturing methods. In addition, a
memorandum of understanding has been established between the two CoEs to
cooperatively pursue program goals and objectives.
        Projects Contrary to TARA Recommendations. As part of the TARA,
DDR&E provides the Military Departments and DLA with feedback and
specifically addresses areas of improvement in program management. During
TARAs, the Deputy of DDR&E has continuously emphasized to the Military
Departments and DLA that many ManTech projects are too small to have a
significant impact and that projects need to address a more broad based pervasive


                                     13
Implementation of ManTech Program



      need. Given this feedback, Military Departments and DLA should tailor their
      ManTech Programs accordingly. However, the Military Departments continue to
      fund small projects with limited impact, and often lump small projects under one
      title giving the impression that projects are for broad based technology. For
      example, the Army ManTech project “Energetic Materials Technology,” valued at
      approximately $3.3 million, consisted of five small projects that varied from
      developing automated systems to renovating buildings for research and
      development work. Specifically, the projects were designed to accomplish the
      following goals.
             1. Develop and demonstrate a fully automated continuous processing
      system for manufacturing gun propellants.
             2. Renovate buildings to support research and development for projects
      such as explosive compositions.
              3. Conduct a study to assess the cost, producibility and environmental
      benefits of producing various propellant mixtures.
              4. Develop a process that would reduce the production cost of the
      minefield safety net. The minefield safety net is designed to clear a minefield lane
      large enough for a tank to breach.
              5. Develop a safe, environmentally acceptable and affordable liquid
      propellant manufacturing process.



Identifying and Reporting ManTech Program Benefits

      DDR&E is responsible for providing DOD and Congress with reasonable assurance
      that the ManTech program is effectively implemented and results are achieved.
      Congress identified the need to improve measures of program effectiveness,
      validate cost savings, and increase the transfer of manufacturing technologies to
      industry. This should include establishing criteria ensuring that projects are
      completed in a timely manner, are achieving the projects’ objectives, have
      deliverables, result in technology transfers to industry, are of benefit to the
      war-fighter, and that cost savings or other demonstrable benefits are achieved. In
      addition, performance metrics should be used to measure project results.

      DDR&E Level Reviews. According to DDR&E, the TARAs provide reasonable
      assurance that the Military Departments and DLA are effectively implementing the
      ManTech program. Our review of the TARA showed that it lacked information
      needed to assess the effectiveness of the program. For example, the reviews do
      not include overall ManTech program metrics, such as number of projects started


                                            14
                                          Implementation of the ManTech Program



    or completed, milestones for ongoing projects, estimated or actual project costs,
    total number of projects transferred to industry, and actual cost savings and other
    benefits realized. This type of information is essential when assessing the
    effectiveness of the program. Prior to 1995, the Military Departments were
    required to report project information in a centralized database. However,
    DDR&E discontinued this practice in March 1995 because of complications with
    the system. DDR&E needs to establish a standardized system for tracking projects
    that minimally identifies: project start/end date, milestones, need for the project,
    estimated/actual costs, projects transferred to industry, and benefits realized. In
    addition, DDR&E needs to issue guidance to the Military Departments and DLA
    regarding reporting requirements, how to determine performance measurements
    and cost savings/avoidance, and any other relevant criteria. DDR&E should also
    perform reviews of the reported information to validate that ManTech funds are
    expended appropriately.
    Component Level Reviews. Project benefits (cost savings, labor reductions, etc.)
    were not adequately supported for 21 projects and 10 CoEs. For example, the Air
    Force, CoE, National Center for Manufacturing Sciences provided a report
    showing potential benefits for projects. However, the CoE was unable to provide
    supporting documentation showing the computations of the potential benefits and
    whether project benefits were realized.
    Performance Metrics. The ManTech Program needs to improve performance
    metrics. Performance metrics allow the program to be evaluated through objective
    measurement and systematic analysis to the extent the program achieves the
    intended objectives or goals. The Government Performance and Results Act of
    1993 holds Federal agencies accountable for achieving program results. In
    accordance with TARA recommendations, the Joint Defense Manufacturing
    Technology Panel has put a process in place to establish technology metrics for
    ManTech projects. However, the process needs improvement to identify
    performance metrics, such as return on investment, for the entire program and
    CoEs.



Cost Sharing

    The intent of the ManTech Program is to bring new technology into
    manufacturing, and to leverage ManTech Program mnds with other government
    and industry resources to achieve the defense-essential manufacturing capabilities
    required. This is accomplished through cost sharing. Cost sharing occurs when




                                         15
Implementation of ManTech Program



      industry shares in the cost of a project either through cash or in-kind contributions.
      In-kind contributions may include the contribution of supplies, material, or
      personnel by the industry participant.
      Cost-Sharing Guidance. The FY 1995 National Defense Authorization Act
      stated that a grant, contract, cooperative agreement, or other transaction may not
      be entered into under the ManTech Program on any basis other than cost sharing,
      unless the Secretary of Defense determines that the grant, contract, cooperative
      agreement is for a program that :

              l   is not likely to have any immediate and direct commercial application; or

             is of sufficient high risk to discourage cost sharing by non-Federal
              l

      Government sources.

      The FY 1996 Defense Authorization Act went a step further and required that at
      least 25 percent of the funds available for the ManTech Program each fiscal year
      be used for awarding grants and entering into contracts and cooperative
      agreements under which the ratio of recipient cost to Government cost is two to
      one. If the cost sharing requirement cannot be met by July 15 of the fiscal year,
      the Under Secretary of Defense for Acquisition and Technology may waive the
      requirement. Rationale for waivers must be submitted to the Senate Committee on
      Armed Services, *and the House Committee on National Security. DDR&E
      provided the Mrhtary Departments with a copy of the FY 1995 National Defense
      Authorization Act, along with instructions on how to report cost sharing to
      DDR&E. The instructions stated that cost sharing may include both cash and
      in-kind contributions.

      Cost-Sharing Reports. For FY 1996, the Military Departments and DLA
      provided DDR&E with reports of cost sharing for new awards. According to the
      Military Departments and DLA, for FY 1996, new awards totaled $8.8 million,
      with $3 million (34 percent of new awards) using two to one cost sharing. For
      FY 1997, the Military Departments and DLA reported new awards totaled
      $3~~2.gmll~on, with $9.5 million (27 percent of new awards) using two to one cost


      Accounting for Cost Sharing. Overall, the Military Departments and DLA were
      identifying cost sharing. The majority of the Military Departments cost sharing
      was through in-kind contributions, however, the Military Departments could not
      adequately support the value. For example, of the 10 CoEs reviewed, we
      identified only one CoE that maintained records showing the value of cost sharing
      through in-kind contributions. The remaining nine CoEs stated that cost sharing
      was received, but they were unable to support the dollar value for claimed in-kind
      contributions. DDR&E needs to provide additional guidance to the Military
      Departments and DLA on what is considered an acceptable in-kind contribution as
      well as necessary documentation requirements. The cost sharing requirement

                                             16
                                          Implementation of the ManTech Program



    should be similar to those for other transactions and precludes counting prior
    research costs and funds from other Federal programs. In addition, DDR&E needs
    to monitor whether the Military Departments and DLA can support reported cost
    sharing amounts.



Use of Competition

    Competitive Requirements for ManTech Program. Federal Acquisition
    Regulation part 6, “Competition Requirement,” states that contracting officers
    shall promote and provide for full and open competition in soliciting offers and
    awarding Government contracts. The FY 1995 National Defense Authorization
    Act stated that competitive procedures shall be used for awarding all grants and
    entering into all contracts, cooperative agreements, and all other transactions
    under the ManTech Program.

    Extent of Competition Used. The use of competition under the ManTech
    Program varies. We evaluated the extent of competition for projects awarded
    directly by the Military Departments and DLA, projects awarded to the CoEs, and
    the awarding of contracts, grants, and cooperative agreements to the CoEs for the
    operation of the CoEs.

           Military Departments Awarding Projects. For the 21 projects reviewed
    that were awarded directly by the Military Departments and DLA, 15 were
    awarded competitively and 6 were awarded sole source. Justification for awarding
    sole-source projects was that the organizations completing the work were the only
    ones with the experience and expertise. For example, a sole-source contract was
    awarded for the development of a gun propellant mixture stated that there was no
    other United States source for this essential DOD process. The justifications
    appeared reasonable.

            CoEs Awarding Projects. Projects awarded to the CoEs were
    accomplished in multiple ways. The projects were subcontracted to other
    companies or organizations, performed by the CoE directly, or performed under a
    consortium arrangement that included the CoE and industry partners. Once the
    projects were awarded to the CoEs, however, project accomplishment was left to
    the discretion of the CoE. At that point, DOD no longer controlled competition.

            CoE Awards. Contracts, grants, and cooperative agreements were
    awarded competitively to establish the 10 CoEs. However, of the 10 CoEs
    reviewed, two CoEs were not being recompeted after the initial contract, grant, or
    cooperative agreement was awarded. Because timeframes had not yet expired on
    the remaining eight CoEs, we did not review them for competition. For example,
    the Air Force initially awarded a grant to the National Center for Manufacturing


                                        17
Implementation of ManTech Program



      Sciences in Ann Arbor, Michigan, in 1986 at the direction of Congress. The
      Center has not been recompeted since its establishment and continues to receive
      congressional earmarks. In addition, the CoE for Composite Manufacturing
      Technology in Columbia, South Carolina, established by the Navy in 1990, has not
      been recompeted since its establishment.

      Adequacy of Competition for CoEs. The intent of competition is to ensure that
      DOD obtains needed goods and services at a reasonable price. Officials in
      DDR&E, the Military Departments, and DLA responsible for awarding ManTech
      Program contracts, grants, and cooperative agreements, need to reevaluate and
      improve the use of competitive procedures. However, the Military Departments
      and DLA find it difficult to recompete five CoEs because they were established by
      Congress, and continue to receive congressional earmarks.



Technology Transfer and Dual-Use

      The ManTech program is driven by DOD needs for technologies and systems that
      provide a superiority edge to the war-fighters. These technologies may be beyond
      the normal risk level acceptable to industry or may not have an initial commercial
      application. Declining DOD budgets have rendered traditional, defense-essential
      approach to technology development and procurement less affordable and less
      effective than in the past. Thus, it is critical that DOD programs take advantage of
      cost-conscious, market-driven, commercial production and leverage to the
      maximum extent, and share those huge investments in new technology developed
      within ManTech with the commercial sector. This can be accomplished via
      technology transfer and the development of dual-use technologies.

      Technology Transfers Related to ManTech. The ManTech program relies on a
      variety of mechanisms to disseminate and share the technologies it develops,
      including encouraging industry consortia and teams to perform projects,
      conducting end-of-project demonstrations, holding workshops and conferences, or
      relying on the CoEs to transfer the technology. In addition, DDR&E hosts an
      annual Defense Manufacturing Conference that provides a forum for presenting
      and discussing current and future projects, and the Military Departments and
      Defense agencies make technical reports available through the Manufacturing
      Technology Information Analysis Center (MTIAC).

      Existing Technology Transfer Efforts. The annual Defense Manufacturing
      Conference provides an excellent opportunity for advertising and demonstrating
      ManTech related technologies. The 1996 conference was attended by
      800 industry and Government representatives and included 70 exhibits sponsored
      by industrial corporations, industry associations, and CoEs. Technical sessions or


                                           18
                                       Implementation of the ManTech Program



symposia were conducted in areas such as metals, composites, advanced industrial
practices, and munitions.

Opportunities for Improving Technology Transfers. The MTIAC was
established in 1984 to serve as a central source of information on Defense-related
manufacturing technologies for both Government and the private sector.
According to the DDR&E ManTech Program Manager, the MTIAC no longer
maintains ManTech data, either as a list of ManTech projects or reports from
completed projects. ManTech projects have not been updated in the MTIAC
database since early 1990 because the system was not user friendly, and the
Military Departments were not periodically updating information. The MTIAC
will, however, provide someone inquiring about a ManTech project with a point of
contact where work is being performed.

The ManTech program and resultant projects are a major portion of the DOD
efforts to identify manufacturing technologies useful to DOD. Therefore, both
ManTech projects current and past, as well as the results of those projects, should
be available from the MTIAC. The Director, DOD ManTech program, and the
Program Manager of the MTIAC should establish mechanisms to maintain, as well
as, make such information available to interested parties.
Dual Use Efforts Related to ManTech. Dual use technology has become a key
component in DOD investment strategy to make better use of funds while
maintaining weapon system performance superiority and affordability. The intent
of dual use efforts is to leverage off commercial technology at the R&D level to
increase affordability, performance, and sustainability of military equipment. The
plan, similar to ManTech, is to conduct these projects on a cost sharing basis
between DOD and industry. The dual use program can complement the ManTech
Program by not only identifying manufacturing technologies that are more efficient
and cost-effective, but by looking first to the private sector for technologies that
already exist, and leveraging off them, rather than funding their redevelopment for
the military sector.
As an example of dual use capabilities already incorporated into the ManTech
Program, the Air Force Military Products from Commercial Lines pilot program is
demonstrating the commercial manufacturing of military electronic modules.
Rather than being produced on a dedicated military line, tactical tighter and
advanced helicopter electronics boards will be produced on a commercial
automotive manufacturing line.

DDR&E should evaluate the possibility of dual use technologies as part of the
review process of proposed ManTech projects. In light of decreasing DOD funds,
the need to use those funds more efficiently, and the potential for duplication
among DOD-funded programs, it is important for DDR&E to coordinate during
the planning and review stages of the ManTech Program, to ensure that
duplication does not occur, that technology developed within ManTech is


                                     19
Implementation of ManTech Program



      transferred and used by industry, and that opportunities for dual use are pursued to
      the fullest. Such efforts can be accomplished through an effective guidance and
      review process of ManTech projects.



Recommendations and Management Comments

      We recommend that the Director, Defense Research & Engineering:

      1. Revise DOD Instruction 4200.15, “Manufacturing Technology Program” to:
              a. Clearly define selection criteria for ManTech projects, including defining
      the terms “defense-essential” and “beyond normal risk of industry”.
           b. Clearly define the roles and responsibility of parties executing the
      ManTech program.
             c. Establish performance metrics for reporting:
                     (1) Program results to demonstrate that the technology has in fact
      been transferred to private industry or used as intended.

                      (2) The status of projects from award to completion. The metrics
      should identify project milestones and accomplishments, and the actions to transfer
      results to industry with demonstrated benefits.

              d. Include criteria for cost sharing that state what constitutes an acceptable
      in-kind contribution, documentation requirements for proof of cost contributions,
      and identifies the validation efforts taken to determine whether cost sharing goals
      have been met.

      2. Strengthen the Joint Defense Manufacturing Technology Panel by:

             a. Establishing an official charter for the Joint Defense Manufacturing
      Technology Panel.

              b. Meeting quarterly and reviewing projects prior to award and execution
      for compliance with the Manufacturing Technology Program to eliminate
      duplication and ensure compliance with Manufacturing Technology goals and
      objectives.
             c. Reviewing ongoing Manufacturing Technology projects to ensure that:

                     (1) Milestones are met.

                                            20
                                      Implementation of the ManTech Program



              (2) Benefits are realized.

              (3) Verify that technology is transferred to industry.

       d. Meeting with Director, Defense Research and Engineering, and
ensuring that projects that do not comply with program goals are not provided
funding until remedial actions are taken.

3. Review Centers of Excellence including sole-source justifications for those
Centers of Excellence that have not been recompeted and require competition for
future awards.

4. Establish a process for Military Departments and Defense Logistics Agency to
transfer ongoing and completed project results to the Manufacturing Technology
Information Analysis Center and verify that the Director of the Manufacturing
Technology Information Analysis Center incorporates the information into the
database of Manufacturing Technology projects.
Management Comments. The Director, Defense Research and Engineering, did
not comment on a draft of this report. Therefore, we request written comments to
the final report.




                                    21
Part II - Additional Information
Appendix A. Audit Process

Scope

    We reviewed data from FY 1995 through FY 1997. We evaluated the policies and
    procedures of DDR&E and DLA for selecting, developing, and executing
    ManTech projects. We compared and analyzed the process for selection of the
    ManTech projects for determining the effectiveness of the program, and the
    transition of ManTech projects to industry. The audit did not rely on computer
    processed data. We interviewed responsible DDR&E, Military Departments, and
    DLA officials.

    Projects were reviewed for adequacy of project justification, accountability of
    project cost and benefits, transition plan to industry, contract competition, and cost
    sharing. CoEs were reviewed for relevance to ManTech program, management
    and oversight, and accountability of project cost.



Methodology

    Universe and Sample. We judgmentally selected 21 projects and 10 centers of
    excellence from a sample of 97 projects and 17 centers of excellence. We derived
    our sample from various listings provided by each of the Military Departments and
    the Defense Logistics Agency stating ManTech projects and CoEs for FY 1996.
    Projects and CoEs were selected based on high dollar value and ensuring some
    representation from DOD organizations. CoE’s and projects selected represented
    approximately 24 percent of the FY 1996 budget.

    Audit Type, Dates, and Standards. We conducted this economy and efficiency
    audit from February 1997 through October 1997, in accordance with auditing
    standards issued by the Comptroller General of the United States, as implemented
    by the Inspector General, DOD. We included such tests of management controls
    considered necessary.

    Contacts During the Audit, We visited or contacted individuals and
    organizations within DOD, the General Accounting Office, contractor facilities,
    and various universities.




                                         24
Appendix A. Audit Process



Management Control Program Review

      DOD Directive 5010.38? “Management Control Program,” August 26, 1996,
      requires DOD organizations to implement a comprehensive system of management
      controls that provide reasonable assurance that programs are operating as intended
      and to evaluate the adequacy of controls.
      Scope of Review of Management Control Program. We evaluated the
      adequacy of the DDR&E and the DLA management controls over the selection,
      management, and transition into industry of ManTech projects. In assessing those
      controls, we evaluated the plans, procedures, written policies, and management
      reviews.
      Adequacy of Management Controls. The audit identified a material weakness.
      The policies and procedures governing the management of the ManTech Program
      were not adequate to ensure program objectives were being met. We identified a
      material management control weakness in the criteria for selecting projects for the
      ManTech Program. See Part I for details on the material weakness. The
      recommendations, if implemented, will improve the effectiveness of the ManTech
      Program. A copy of the report will be provided to the senior officials responsible
      for the management controls.



Prior Coverage

      GAO/NSIAD-92-74 (OSD Case No. 8923), “DOD’S Manufacturing Technology
      Program Needs Systematic Evaluation, ” March 1992. The report states that the
      Office of Secretary of Defense did not have reasonable assurance that the
      ManTech Program is being effectively implemented. Long standing problems with
      the program’s central management information system has gone uncorrected.
      Also, the program lacked goals and the cost savings benefits or financial benefit
      being attributed to ManTech projects are not reliable. The General Accounting
      Office recommended that the Secretary of Defense revise the ManTech guidance
      to demonstrate how the Military Departments program will be used to evaluate the
      overall ManTech Program and establish a system of controls designed to provide
      assurance that the ManTech Program is effectively implemented. Such a system
      should include guidance to ensure that the military Departments routinely and
      uniformly report on:
              l the extent to which they have sound rationale to demonstrate they are
      fimding projects that industry would not fund on a timely basis,
             l   the results of the projects measured against standardized criteria, and

                                            25
                                                     Appendix A. Audit Process



       l their progress in meeting established program goals, priorities, and

planned approach.
The Secretary of Defense concurred with the recommendation to revise the
guidance and partially concurred with establishing a system of controls. According
to the Secretary of Defense, control problems can result from Congress
earmarking funds for projects that have no benefit or cost effectiveness that is
quantified.




                                    26
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies and Exchange Information
  Director, Defense Research and Engineering


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)


Other Defense Organizations
Director, Defense Logistics Agency
Director, Defense Advanced Research Projects Agency


Non-Defense Federal Organizations and Individuals
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental AfYairs




                                          27
                                                     Appendix B. Report Distribution




Non-Defense Federal Organizations and Individuals (cont’d)
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
House Committee on National Security




                                           28
Audit Team Members
The Contract Management Directorate Office of the Assistant Inspector General for
Auditing, DOD, produced this report.


Paul J. Granetto
Kimberley A. Caprio
Veronica G. McCain
Charlene K. Grondine
Phillip L. Holbrook
Robyn N. Stanley
Doris M. Reese
